Office 0 Inspector General
           Unite.d.States
  Insemational Track Commissicn




             Review of the
         Commission's Budget
            Development and
       Allocation Processes With
            A Comparison to
          Five Selected Other
            Federal Agencies
                                  February   ~   2000
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436
February 29. 2000

TO:    THE COMMISSION

I hereby submit Audit Report No. OIG-AR-02-00, Review of the Commission's
Budget Development and Allocation Processes H!ith a ComlJari.wm to Five Selected
Other Federal Agencies.

The objective of th is review was to compare the usrrc budget development
and allocation processes with those of similar federal agencies and to identify
areas [or improving US fTC processes.

We engaged Leon Snead & Company,P.e. to assist in conducting this review.

We found that the past budget development processes and practices appear to
have served the USITC well in providing adequate funding. However, we
found the loss of the entire staff of the Budget Division illustrates the need to
prepare written budget policies and procedures. Additionally, we found that
the accounting system has not met management's needs for information as to
the costs of programs and projects, nor has the accounting data been accessible
by managers in a manner which would encourage the use of the information.
The accounting system is capable of meeting this req uirement , but managers
must work with the accounting staff to define and communicate their needs.
Once changes are made to accumulate the desired data, management use of the
data should be encouraged by making the data readily accessible.

Based on these findings. we recommended that the Director of Administration
(I) prepare written budget policies and procedures to ensure continuity in the
event of personnel changes, (2) obtain input from Cost Center Managers
regarding their cost accounting needs and modify accounting procedures
accordingly to meet the managers' needs for timely, useful and complete
accounting information and (3) the Director, Office of Information Services,
assist the Director, Office of Administration, in accessing the financial data in
FFS and providing the financial data to the Commission's financial managers
and Cost Center Managers in a database format that is timely, flexible, user-
friendly, and responsive to the needs identified in the analysis.
The Director of Administration in his response to the draft report agreed with
our findings and recommendations and requested that we incorporate a specific
wording change to our third recommendation. The Chairman, as the Audit
Follow-up Official for the Commission, concurred with the Director of
Administration's response. Their response is incorporated as an Appendix to
this report.

We incorporated the wording change for the third recommendation and find
that the Director of Administration's proposed schedule to implement the
recommendations is reasonable.


                                                 Z/~
                                                 Dev~
                                                   Acting Inspector General
                                                            OIG-AR-02-00




        Audit Report No. OIG-AR-02-00

Review of the Commission's Budget Development
 and AIlocation Processes With A Comparison to
      Five Selected Other Federal Agencies

              February 29,2000




                                        orfice orlnspector General
                                             u:s. J,;t~nl.)tj';"1c11   TC(IJ" Cammi~jicm
                                                                                OIG-AR-02-00


                              TABLE OF CONTENTS


                                                                                                      Page

I. BACKGROUND                                                                                 .

II. OBJECTIVE                                                                                          .

III. METHODOLOGY AND SCOPE                                                                             .

IV. THE USlTC BUDGET DEVELOPMENT AND ALLOCATION PROCESSES                                                   2
      A. Budget Development                                                                                 2
      B. Allocation of Funds                                                                                4
      C. Modifications to the Spending Plan  .................                                              4

V. AGENCY COMPARISONS                                                                                       5
     A. Agency Profiles                    .                                                                5
     B. Budget Development                                                                                  6
     C. Allocation of Funds                                                                                 8

VI. CONCLUSIONS AND RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . .. 10

VII. MANAGEMENT RESPONSE                                                                          .        II

Appendix:   Memorandum from the Director of Administration to the Acting Inspector
            General, dated February 15, 2000, (AD-X-O 15)




                                                          Office oUnspector General
                                                                   U_S Inf,miclti<Jll'11 TrJd" GmWJi2.oli..m
                                                                                    OIG-AR-02-00


I.     BACKGROUND

The United States International Trade Commission (USITC) is an independent agency of the
U.S. Government. The USITC receives a single no-year appropriation from Congress. Although
the USITC submits a budget for inclusion in the President's budget, the USITC budget is not
subject to executive branch review.

The USITC appropriation for fiscal year (FY) 1999 was $44.5 million, and a FY 1998 carryover
of $1.2 million was added, for a total of $45.7 million. However, by agreement with Congress,
the carryover from the prior year is not. t.o be used without prior Congressional approval.

Personnel compensation and benefits comprise the majority of the U SITC budget. The FY 1999
budget. provided for 425 work-years, which represented over 74 percent of the budget. Rental
paid to the General Services Administration is the other major item in the budget, and for FY
1999 accounted for 12 percent. of the budget. Thus, only 14 percent. of the budget is available
for items other than personnel and rental costs.

II.    OBJECTIVE

The objective of this review was to compare the USITC budget development and allocation
processes with those of similar federal agencies and to identify areas for improving USITC
processes.

III.   METHODOLOGY AND SCOPE

We engaged Leon Snead & Company, P.C to assist in conduct.ing this review.

We conducted our review from May 27, 1999 through October 28, 1999 in the Washingt.on,
D.C. metropolit.an area at USITC and five ot.her selected federal agencies. We developed a
detailed survey instrument covering the budget development and budget allocation processes.
We used the survey instrument at USITC and each of the five federal agencies in order to ensure
consistency in t.he dat.a collected.

At USITC, we interviewed the Director, Office of Finance and Budget (OFB); the Director, Office
of Administration, t.he Director, Office of Operations; the General Counsel; and a Cost Center
Manager (CCM). We also obtained and reviewed copies of pertinent. documents.

We made arrangement.s t.o obtain comparative dat.a from the five other federal agencies. We
visited each of t.he five agencies, interviewed senior officials with responsibility for budget
development. and allocat.ion, and obtained copies of relevant documents. We compared their
processes wit.h t.hose of USITC Some of the five agencies requested that we not identify them.
Therefore, we have not identified t.he other agencies in our report.

We conducted our review in accordance with Generally Accepted Covemmcnt Auditing
Standards and under the authority of the Inspector General Act of 1978, as amended.


                                                                 Office o{Inspector General
                                                                       [IS ['llcrllutiollc'll Tr~d~ C.mrmissiGlI
                                                                                      OIG-AR-02-00

IV.    THE USITC BUDGET DEVELOPMENT AND ALLOCATION PROCESSES

The flow chart in Figure I on page 3 provides a summary depiction of the current USITC budget
development and allocation processes. The following sections provide a time-line of events that
the Commission currently follows in implementing these processes.

       A.     BUDGET DEVELOPMENT

Based on procedures used in the development of the rY 200 I budget, the US1TC uses the
following budget development process:

                      The budget process begins with the OFB issuing a memo to the Cost
                      Center Managers (CCMs) requesting their proposed budget for the budget
                      year.

                      CCMs provide their responses to OFB.

       August         OFB provides a recommended budget to the Budget Committee, with
                      copies to the CCMs and to the Commission.

                      The Budget Committee meets with the CCMs to discuss the proposals.

                      CCMs provide their rebuttals to the Budget Committee.

       September      The Chairman of the Budget Committee makes final adjustments to the
                      budget, obtains the approval of other members of the Budget Committee,
                      and presents a recommended budget to the Chairman of the Commission.

       October        The tentative budget is provided to the Office of Management and Budget
                      (OMB) for inclusion in the President's budget. OMB docs not review the
                      USlTC budget.

       October -      After Congress passes the appropriation, and the amount of the
       December       unobligated balance carried forward from the prior year is known, the
                      Chairman of the Commission submits the proposed budget for the coming
                      year and the proposed spending plan for the current year for approval by
                      the Commission. As the appropriation generally is not passed until after
                      the beginning of the fiscal year, this generally occurs early in December.

       Januar:y       Final numbers are provided to OMB and submitted to Congress.




                                                                  Oeice oflnspeetor General
                                               2                        u.s.   ["fema/l0''''} Trude C"monio<si"",
                                                                                  OIG-AR-02-00




                         l'1                            ·• ·,·· , "·· .                   0

                                                                                          ;



                    <E]                                         · ] ·· ,
                                                       <            0
                                                                                          .~
                                                                        ~
                                                                             0
                                                                             <            0
                >                             •0       0
                                                         , ~
          ~<'
            ~

                .              .
                                                       0
                                                       w
                                                         •• ~, · , ·
                                                         •
                                                           w
                                                           > ~•     <  • •• " •,
                                                                                          -


                                                             -,· •] ,~ !~ ~,~ •"
                                                                                  0
                0
                                                           >
                0
                                  ;                    w", e                 "
                                                                                               ~

                                                                       ,
                                                           e
                                                           • •
                             .",
                0
                                                       r            <   8
                                                                                          ~

                                                       ·, · ,•ss ,," ·
                                                           "                          ~

                             1<i• l:
                                                       0
                                                       r   "0           E"                ;    <
                                  0
                                                       W     E'   ,          !                 0
                     r
                         "
                     ... .   ~jI-         "            0

                                                       •
                                                                ~
                                                                        ~
                                                                        "                 ,
                                                       "                     0


                    o
                    o
                    o
                    o
                    o
                    o; -.:p
                             \"<CJ
                         ~
                    cj"-:;c?

                        cr.  r----~"'J




  ·   >
                                                                             e
                                                                             e
                                                                             u
                                              •~
. ·
                    •
                    •
      o
                                                                             "r
      o
      o
                                                                             •
                                                                             ,
      o
                             1~-J
I..                                           •

                              -

                         . ~~
                         0
                         0
                              :; ~

                         0    :-~         s
                         0
                              ~       s
                              >
                    · -T---- ·
                         ·, •
                    ~ ..,,                    -a   ~
                                                   o




      •
                    d!-/ ~ •··
                             ~0
                                                   o



      g
      o                  ,-:,
                         •i




                                                       Office offnspector Genera!
                                  3                             r.J.S. I~,t~TIl~(i[}r/Ql Tradl!. C"mmi,,~j"l1
                                                                                    OIG-AR-02-00


       B.     ALLOCATION OF FUNDS

The process of determining the amounts to be allocated to the CCMs as their spending plan for
the coming fiscal year runs concurrent with the development of the budget. The steps in this
process are as follows:

                     OPB requests that CCMs submit their proposed spending plans for the
                     coming fiscal year. The spending plan is expected to conform to the
                     Congressional authorization bill, if one has been enacted; if not, the
                     proposed spending plan is to conform to the budget which was submitted
                     in the previous January.

                     CCMs provide their responses to   a FB.
       August        OFB provides a recommended spending plan to the Budget Committee,
                     with copies to the CCMs and to the Commission.

                     The Budget Committee meets with the CCMs to discuss the OFB proposal
                     and to obtain any rebuttals from the CCMs.

       September     The Chairman of the Budget Committee makes final adjustments to the
                     spending plan; obtains approval from the members of the Budget
                     Committee, and presents a recommended spending plan to the Chairman
                     of the Commission.

       October -     After Congress passes the appropriation, OFB requests CCMs to submit
       December      their proposed apportionment of the appropriation by quarters. Using the
                     input from the CCMs, OFB prepares the apportionment to allocate funds
                     to each quarter of the fiscal year.

                     If the Commission has not approved a spending plan for the current fiscal
                     year, OFB makes tentative allocations of funds to the CCMs based on the
                     spending plan recommended by the Budget Committee. Each CCM's
                     allocation is subdivided by Object Classification Code (OCC). After a plan
                     is approved by the Commission, OFB makes any adjustments necessary to
                     the allocations previously made.

       C.     MODIFICATIONS TO THE SPENDING PLAN

During the year, CCMs may make changes not exceeding $25,000 between the OCCs within
their spending plans. Similarly, changes between CCMs which do not exceed $25,000 may be
made provided both CCMs agree. The Chairman of the Commission is notified of all changes
in excess of $25,000.




                                                                 Office oflnspeetor General
                                              4                        u.s I.,t"mu{'c"",1 Tr"J" C"'!7IIlI¢.$ivll
                                                                                                                               OIG-AR-02-00

In April, the OFB requests that CCMs review their plans for the remainder of the current fiscal
year to identify needed adjustments to the spending plan. They also are asked to review
unexpended obligations to identify any which can be adjusted orcance1ed in order to make funds
available to satisfy unfunded requirements,

V,     AGENCY COMPARISONS

       A.            AGENCY PROFILES

As indicated in Table I, the agencies included in the study have a variety of types of
appropriations, One receives a no-year appropriation like that of USITC, three have annual
appropriations, and one has five separate appropriation accounts which are a mixture of annual
and no-year.

                                      TA8LE I - COMPARISON OF AGENCY PROFILES


                                                                                    AGENCY

                                               USITC               A            8           C             0                     E

            Tvjx- of Appropriation            NO-YL'HT          Annual       No-Yr-ar   AmHHlI        AmllU11           Annual &
                                                                                                                        No-Year ~

            FY99 Appropriation                   546              $',7       $11 7 ~      $61            $47               $232'
            (uulbonsj

            Personnel Cost {millions)            $:n              $:'"         Stl7       546            $35                 $lIlI

            Rent {millions]                       S\              $',          $11         S8            S'l                  $:;2

            Pcm-nr for Personnel &             82.6%             70.3%       83.8%       88.')%        80.8%              573*,1
            Rl"ll!


            No. of Pcrsounrl (FTE) s             423              347          979        5HO            4RO                 1917

            Budget Office Sraftillg               2                :!           4          3.8            4                     0

            Subjr-cr    to   OMB Review          No               No           Yes         Y('~          No                   Yt'S


            L Agcm}' E has five appropriation ,(It'('Ollllt~. Qilly two an' for tlw 0p\'Tatill~ eXp't~II.W~ (It tlu- a bl'llcy.
            One of those is an annual appropriation ('(Jvt"rillg normal operating nJ,~t~, The ntlll-T,;.J llo·r(~;l,t
            appmpriation is for r-epairs and restoration of aJ.:e'IIl)' facilities. Tlu- n'Il\,lining fund ... acrounr for
            gr.mr~, h>ifr~ and trusts.


              For FY L(1)<), agem)' B n'('t'ivt>d an appropriariou from COllh'TI:'M in the aruouut of S 10.2 millioll.
            The balance of irs funding \vas frtnu fp.. ~. Commencing with rY 20(J(), the entire tumling will lx-
            from fees

            'jTlu- amount shown is only for the appropriation which rovers operatillg t'Xlwnses. $29 million of
            this appropriation Is for redemption of debe and interest payment s tnctdcnt to facilities constructed
            for tlu; agnwy.

             1.   If the debt redemption and illll'T('st payments were excluded from the appropriation, tilt>
            personnel and rent would represent 65.5 % l,Jt the appropriation.

             \. For consistency, the fTEs shown        :HP   from the FY 19l)l) data in the fY 2CX)O budget submisstons,
            and are not tin- actual number of personnel employed.




                                                                                                  Office oflnspeetar General
                                                                         5                                    i:s.   l!ltcm'"'ti,-,~,.Jr Tr.:J.J",   C;.mml;;,;i.:>/I
                                                                                                                                  OIG-AR-02-00


Three of the agencies visited are comparable to USITC in both the amount of their
appropriations and in the number of personnel employed. The other two are significantly larger
than USITC. One of the larger agencies has five appropriation accounts, only two of which cover
costs comparable to those funded by the USITC appropriation.

USITC and all the other agencies spend the majority of their funds for personnel costs, which
along with rent, the other major item of expense, accounts for from about 57 % to about 88 %
of the total operating appropriations.

       B.            BUDGET DEVELOPMENT

Table 2 shows comparisons between USITC and the other agencies for selected aspects of the
budget development process. There are more similarities in the processes for developing the
budget than there are differences.

                                TABLE 2 . COMPARISON OF AGENCY BUOGET PROCESSES


                                                                                                AGENCY

                                                                       USITC         A         B         C          D                   E

            Bmtgt·t Committee ]                                          y~s        Yes       Y('s     Yl'S?       Yl'S               Yes

            Pro.l,'HUU Managers represented on Budget                    Y,'s        No       No        Yt'~       No                  No
            Conuuittee

            Budget Officer a nu-mber of Budget                           y('~        No       Yt:'.~    Yt>s       Yt'S                No
            Comuuttcc

            Budget approved by Iltajnrity {If Commission                 Yes        Yes       Yc.~      Yl'S       Yes                Yes
            OTHead (If Agency

            Budget Sobnussron im-ludc-s Performance                      No         Yes       Yt'_~     v..s       v-«                 No
            Plan

            B1HI~<·t   linke-d to Pertonuaucr- Plan                      No         Yes       Y,s       Vel'       Yes                 No

            CCMs develop Slam,,!; Heeds                                  Y('S       Yes       YI'S      Yt's       ¥ps                Yes

            Bmlgt·t Offirr- prices personnel emrs                        Yes        Yes       Yt'~      Yes        Yt'~               y~~



            Budgt'l Office produces first draft of 1Judgt~t              Y(~!l      Y('s      No        No         No                  No

            i.   Although some ilgl'ltcil's have no formally established budg('{ committee, all have some group of
            individuals who essentially perform that function.

            ~- Although rhis a1-;.l·IH)' dol'S not have a bllllg(·t c-omrnit ree as such, the budget is developed c-olh-c-tively
            hy abonr fifty people rt'prt>,~(·ntil\J.; rhc various divi,~i(JlI,S awl offkes, Tilt' budget otflce p<lrtidp:1tt.'s ill
            the development procpss and then puts tlu- budget into the prnpt'r format for presentation for
            approval.


The single greatest difference is the incorporation of the strategic and performance plans with the
budget. Only USITC and one of the five other agencies had not accomplished this at the time
of submission of the FY 2000 budget. This change appears to be having far reaching effects in
the agencies who have wedded the two processes. AccounIing and financial management
processes are placing more emphasis on the programs, goals and objectives, and less on the
management of obligations and available balances. USITC incorporated the strategic plan in the
                                                                                                       Olj;ce o{Inspector General
                                                                        6                                       iJ,B.   /.,tl2r>lilh-oj""IJ   Tmdc   C,;>mmi$::;ioll
                                                                                        OIG-AR-02-00

budget for FY 2000, and will begin to incorporate performance plans and objectives in the budget
for FY 2001.

While final approval of budgets and performance plans in all cases is at the Commission or
agency head level, the involvement of that level in the actual development of the budget varies
considerably among the agencies, This appears to be attributable mostly to the personal
preferences of the individuals involved and varies with changes in the Commission Chairman,
or even individual Commissioners and agency heads,

All agencies included in the study use some form of "budget committee" to review budget
proposals before they are submitted for final approval. USITC and one of the other five agencies
include program management representation on those committees.

In all cases, the CCMs develop staffing plans, but the budget offices convert the staffing plans
into the dollars in the budget for personnel compensation.

All budget offices start the budget development process by providing general budgetary guidance,
At the USITC and one other agency, the budget office prepares a first draft budget for CCMs to
use as a starting point.

For the FY 200 I budget, USITC started with
a proposed budget from the OfB, but
abandoned that in favor of one developed by          "The USITC does not have current
the Budget Committee in conjunction with             directives which describe the budget
the CCMs. The same was done in developing            policies and procedures. "
the FY 2000 expenditure plan proposed for
approval by the Chairman, The proposed
expenditure plan would allocate to CCMs the
full amount of the funded personnel ceiling.

In the past, the USITC staffing plan has withheld a portion of the personnel ceiling and allocated
it later in the year. That practice appears to have been partly responsible for the fact that the
actual number of employees has been substantially lower than the number of funded positions.
This has contributed to the increasing amount of unobligated funds carried forward from one FY
to another. So far as we could determine, the other agencies reviewed do not follow such a
practice.

For the FY 2000 plan, the USITC budget committee proposed to allocate the full personnel
ceiling at the beginning of the year. They estimated that this practice would reduce the lapse rate
which has been over seven percent by about fifty percent. At the same time, funds allocated to
the CCM which centrally administers the personnel funds would be reduced by five percent to
allow for the lapse rate from delays in filling positions. This action would make more funds
available for non-personnel costs at the beginning of the year rather than at mid-year review and
should result in more effective use of funds. The Commission approved this proposal on
December 20, 1999,


                                                                    O{hce o{Inspector General
                                                 7                       u.s. I"fcm.:sn"':'"",1 Trade Comm-is"io"
                                                                                                                                 OIG-AR-02-00


 In developing the FY 200 I budget and the FY 2000 expenditure plan, the USITC budget
 committee appears to have taken greater efforts than in the past to explain the decisions to
 CCMs. This practice should help to alleviate criticisms expressed by some CCMs that they did
 not understand how the budget numbers are developed.

 Neither USITC nor any of the other agencies have current directives which describe the budget
 policies and procedures. The importance of having written policies and procedures is illustrated
 by the present situation in the USITC Budget Division, where, as of November 5, 1999 both
 budget positions were vacant, and the OFB Director has been absent for an extended period.

                  C.     ALLOCATION OF FUNDS

  Table.3 shows comparisons between USITC and the other five agencies in selected aspects of the
  allocation and administration of appropriated funds.

                                  TABLE 3 . COMPARISON OF AGENCY ALLOCATION PROCESSES

                                                                                            AGENCY

                                                  USITC              A                B                   C                         D                  E

Quarterly     I                                     ¥!:"S           Yes              Yes                 VI'S                      Y,'s               Y..-s

Allot-anon Sllhjl'l'l to Anrt-Dcflctcncy            No              No               No                  No                        Yes                No
Arr

Allocated by Object Class                           Yes             Ye,,;            Yes                 Yes                       No                 No

CCM's Rt'pnlh.rnuTlllrillg autbonry"               $25K            None            $!OOK               NPIW-                    NOll,"               Nouu
                                                                                                       Budget                   Budget
                                                                                                     Office $SOK            Office minor

Funds   fUT   personnel held c!tuually              YI'S           Yn'j              No                  Yes                       YIAS               No

AllOL';Ht' personnel cdling                         Yes             Yl'S             Yt;S                Yl'S                      Yes                Yes

Commitment Accounting                                No             No               No                  Yes                        No                No

Prr-ccrrrftcanon of fund availability                No             All          Contracts               No                   Contracts            Only at
                                                                 payments                                                                          yeou end

Approval required to fill peraonucl                 Y(~.s           No               No                  No                         No                Ye.<;
vacancies

CCM'~    access to an'{)1Ul.till.~ data            SOllie           Yl'S             Yes                 N<)                        No                No

JAll agencies Include more than one-fourth of tilt, appropriatiun in rlu- JippnrtioullH'nt for rlu- first quartl'r to allow for greater costs
Incurred in that quarter.

;eNo n'pnl1;ramming aurhortry is indtcarcd for CCMs in agencies 0 and E. However, since these       O1~t"lI('i("~ do nut allocate funds by
ohjt"l.t da~:->, Ill) r"progp.mming is needed except between CCM,,>, Both agencie:'i have Congressionally imposed limits on rravr-l, so                       I\()

repf()~'T<lIlU~l.illg is allowed to rhae account. Rcprogranmung from travel is permitted.

"'Funds f~)r pr-rsonucl costs are held    by the budget office. Other funds are administered by the Offirr- of Administration. Program
managers reo-lw "work year" allocations and are expected to place their emphasis           OH   rnauaging the work years in accordance with the
performance plan.




                                                                                                      O{f;ce o{Inspedor General
                                                                          8                                     r..rs.   IJlt~m<1ti,)tla;   Tmde Commission
                                                                                         OIG-AR-02-00

All agencies in the study apportion appropriations on a quarterly basis with the first quarter
receiving more funds than each of the other three.

Only the two largest agencies in the study allocate personnel compensation funds to individual
CCMs. The size of these organizations coupled with the fact that they have multiple field offices
would make it difficult to manage the personnel accounts on a centralized basis as the other four
agencies do. In most instances, the funds for rent are centrally held. Other items for which funds
generally are not dispersed include telephone, Automatic Data Processing (ADP), and postage.

At USITC and other agencies where personnel compensation funds are held centrally, CCMs are
assigned personnel ceilings. At USITC, approval of the Chairman is required before a vacancy
can be filled, even though the
position is within the aSSigned
personnel ceiling. In addition,      "One agency using the same Department of
CCMs may not use a vacancy           Interior (DOl) accounting system has elected to
to create another position
                                     download the database daily into one of its
within the allocated ceiling
without approval of the              computers, and then make the data available to
Chairman. These requirements         managers in a more "user-friendly" environment
can contribute to delays in          which does not restrict them to the standard reports
filling vacancies. While there is    available from the DOl system:'
no evidence this has been t.he
case at USITC, it has caused
significant delays in the only other agency included in the study which uses a similar procedure.
The necessity for prior approval to fill vacancies should be reexamined once the effects of other
changes being made to the budget process can be evaluated.

USITC and two of the other agencies included in t.his study allocate funds t.o CCMs by object
class. The t.wo agencies which do not allocate by object class believe that the resulting flexibility
eliminates the necessity for extensive reprogrammings within the funds allocated to CCMs.
USITC recently delegated to CCMs authority to reprogram up to $25,000 both within and
between cost center funds.         The Chairman of the Commission must be notified of
reprogrammings in excess 0[$25,000. These reprogrammings still require the OFB to change the
allocations recorded in the official accounting records. Once the effects of the delegation of the
reprogramming authority can be evaluated, consideration should be given to discontinuing the
allocation of funds by object class, thus eliminating the requirement. for the numerous
adjustments to the official accounting records.

USITC and all other agencies authorize CCMs to access the official accounting database.
However, at USITC, few managers actually have been given access. It was necessary for
managers to be trained on how to use the system before they were given access, and few
managers have taken the training. Those who have access make little use of it because they have
found the procedures cumbersome and the available data of little use. One agency using the
same Department of Interior (DOl) accounting system has elected to download the database




                                                                     O{j;ce offnspector General
                                                 9                         rs Iflt~l"IMtiolja'Trad" Com miss;.",
                                                                                            OIG-AR-02-00

daily into one of its computers, and then make the data available to managers in a more" user-
friendly" environment which does not restrict them to the standard reports available from the
001 system.

Another factor in the lack of interest by USITC CCMs in using the accounting system is that the
data displayed is limited to fund status, status of obligations and costs by object class. While this
information is useful, managers also want to be able to determine the cost of programs and
projects. Although cost estimates are developed in the process of obtaining approvals to start
projects, the accounting system does not provide project cost data. Consequently, the manager
cannot determine the variance between estimated and actual project costs.

However, commencing with FY 2000, USITC is changing procedures to better identify the costs
incurred by programs and performance objectives and goals.

VI.     CONCLUSIONS AND RECOMMENDATIONS

The past budget development processes and practices appear to have served the USITC well in
providing adequate funding. However, they have not been linked to management's strategic and
performance plans. Changes instituted with the development of the FY 200 I budget should
resolve those issues, and we have no specific recommendations for changing the actions being
taken. However, the loss of the entire staff of the Budget Division illustrates the need to prepare
written budget policies and procedures.

The accounting system has not met management's needs for information as to the costs of
programs and projects, nor has the accounting data been accessible by managers in a manner
which would encourage the use of the information. The accounting system is capable of meeting
this requirement, but managers must work with the accounting staff to define and communicate
their needs. Once changes are made to accumulate the desired data, management use of the data
should be encouraged by making the data readily accessible.

Based on these conclusions, we recommend the following:

        I.     The Director of Administration prepare written budget policies and procedures to
               ensure continuity in the event of personnel changes.
        2.     The Director of Administration obtain input from CCMs regarding their cost
               accounting needs and modify accounting procedures accordingly to meet the
               managers' needs for timely, useful and complete accounting information.
        3.     The Director. Office of Information Services, assist the Director. Office of
               Administration, in accessing the financial data in FFS and providing financial data
               to the Commission's financial managers and CCMs in a database format that is
               timely, flexible, user-friendly, and responsive to the needs identified in the analysis
               completed for Recommendation 2 (above).




                                                                      Office oUnspector General
                                                 10                         u.s. Itlt~rjl'lti~J1<1j   Trade Commi"";.,,,
                                                                            orG-AR-OZ-OO


VII. MANAGEMENT RESPONSE

Management agreed to all recommendations. Planned actions, which are set forth in the
appendix to this report, will achieve the objectives of the recommendations.




                                                           Office oflnspeetor Genera!
                                          11                    u.s /.,temLlh'L1''''! Tr<,dv Cvmm;$$/Q/l
                               OIG-AR-02-00




APPENDIX




           Office of I nspeetor General
                 u.s.        Tmde Comm':'l5io"
                      lrlt<!rI1c!tj(JllL11
                                                                        Appendix




UNITED STATES INTERNATIONAL TRADE COMMISSION
                            WASHINGTON, DC 20436



February 16, 2000                                                   AD-X-015

MEMORANDUM

TO:           Acting Inspector General

FROM:         Stephen A. McLaughlin, Director     eft _,. • A. ft7))...
              Office of Administration             ~ ....~

SUBJECT:      Response to Draft Report: Audit of the Commission's Budget
              Development and Allocation Process and A Comparison to Five
              Selected Other Federal Agencies

This memorandum is the Office ofAdministration's response to the Draft
Report: Audit ofthe Commission's Budget Development and Allocation Process
and A Comparison to Five Selected Other Federal Agencies. I have reviewed
the draft audit report and am in general agreement with the findings and
recommendations.

The Inspector General recommends that the Director, Office of Administration:

1. Prepare written budget polices and procedures to ensure continuity in the
event of personnel changes.

Response: Agree

AD proposes: The Office of Administration will develop written policies and
standard operating procedures to ensure consistency, continuity, and compliance
with OMB Circular A-II, "Preparing and Submitting Budget Estimates," and
other Federal guidance and direction related to budget formulation, review,
execution, and reconciliation. To achieve this end, AD expects to modify the
existing financial services contract with Bradson Corporation to include
developing written policies and standard operating procedures.

Action for this recommendation should be completed by June 1, 2000.
                                       2

2. Obtain input from Cost Center Managers (CCMs) regarding their cost
accounting needs and modify accounting procedures accordingly to meet the
manager's needs for timely, useful and complete accounting information

Response: Agree

AD proposes: The Office of Administration will obtain input from CCMs
regarding their cost accounting needs and modify accounting procedures to
meet their needs. However, because CCMs' needs may change significantly in
the future due to the Commission's migration toward a cost accounting
approach, the assessment of current needs should be considered tactical. Any
changes to existing reports or additional reports generated through the Federal
Financial System (FFS) will be targeted to meet the requirements of the Chief
Financial Officers Act of 1990 (section 902(a)(3)A - D), Statement ofFederal
Financial Accounting Standard NO.4 (Managerial Cost Accounting Concepts
and Standards for the Federal government ), and Office ofManagement and
Budget requirements. These standards and bulletins require agencies to
develop and maintain accounting systems which report cost information and
provide a systematic measurement of performance. AD expects to modify the
existing financial services contract with Bradson Corporation to include
developing written policies and standard operating procedures. The process will
include:

       •       obtaining input from CCMs to determine their cost accounting
               needs;

       •      reviewing the Strategic and Performance Plans, and budget
              justification and financial statement reporting requirements to
              ensure compatibility;

       •       determining internal and FFS system capabilities;

               developing options and determining funding limitations;

               modifying accounting procedures and implementing system
               changes, if required; and

       •       training ITC staff on procedural changes and use of cost data.

Action on this recommendation should be completed by July I, 2000.

3, Establish procedures to download accounting data from the Department of
Interior accounting system into a database at USITC and make the data
available to managers.

Response: Agree with clarification
                                        3

AD/OIS propose: The Officeof Administration will develop a cost accounting
method based upon the needs of the CCMs and other Commissionreporting
requirements. The outcome ofthe needs/systems analysis described in
Recommendation2 will determinethe timing and method used to meet the
actions required by this recommendation. However, until the needs/systems
analysis stage is completed, the method of accessing FFS data and providing
that information to CCMs will remainundetermined. While the recommendation
in the Draft Report specifically states "establish procedures to download data",
we suggest the following alternative language:

       The Director, Officeof Information Services, assist the Director, Office
       of Administration, in accessingthe financial data in FFS and providing it
       to Commission financial managers and CCMs in a database format that
       is timely, flexible, user-friendly, and responsive to the needs identified in
       the analysis completed for Recommendation 2 (above).

Action on this recommendation sbould be completed by September 1, 2000.
Our current expectation is that the level of effort required to implement a
tactical improvementin accounting data available to CCMs and agency
managers will be fairly small. However, if the estimatedlife cycle cost ofthis
project exceeds $50,000, the project will be subject to IT investment review
and prioritization against alternative uses of resources available in this fiscal
year. Therefore, depending on the specifics ofthe needs assessment and project
proposal, an IRMISC or Budget Committee decision could defer funding for
project execution to next year. The key to avoiding this outcome willbe to
limit the scope of this project to a minimum set ofimmediate data needs.

In addition, prior to the release of this report, the Offices of Administration and
Information Services had initiated a project to download labor cost reports
(work hours and dollars) and convert them into a more user-friendlyformat for
CCMs as well as budget formulation and execution purposes. That project is
expected to be completed by April l, 2000.



Approve:    X                                  Disapprove:         _



Chairman. Lynn M. Bragg


cc:     The Commission
        Office ofInformation Services
